Department of Homeland Security
   Ofﬁce of Inspector General

      Revisions to the Marine Safety Performance Plan 

               and Annual Update Supplement 

            Will Facilitate Improved Management 





OIG-11-22                                     December 2010
                                                        Office ofInspector General

                                                        U.S. Department of Homeland Security
                                                        Washington, DC 20528



                                                        Homeland
                                                        Security

                                            December 28,2010

MEMORANDUM FOR:              The Honorable Admiral Robert J. Papp
                             Commandant
                             United States Coast Guard
                          ~r<~
FROM:                        Richard L. Skinner
                             Inspector General

SUBJECT:                     Revisions to the Marine Safety Performance Plan and
                             Annual Update Supplement Will Facilitate Improved
                             Management


Attached for your information is our final letter report, Revisions to the Marine Safety
Performance Plan and Annual Update Supplement Will Facilitate Improved Management
Controls. We incorporated the formal comments from the U.S. Coast Guard in the
report.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post the
report on our website for public dissemination.

Should you have any questions, please call me, or your staff may contact Anne L.
Richards, Assistant Inspector General for Office of Audits, at (202) 254-4100.

Attachment
Background
In 2007, the House Committee on Transportation and Infrastructure scrutinized the
Marine Safety Program’s ability and preparedness to meet the demands of a dynamic
global maritime environment. The Committee was concerned whether the Coast Guard
had the human capital and technical expertise to safeguard the maritime industry. In
response, the Coast Guard developed and released a performance plan for the Marine
Safety Program to convey its goals, objectives, and courses of action for securing the
American coastlines over the next 5 years. We reviewed this Marine Safety Performance
Plan, FYs 2009–2014 (MSPP) and the Annual Update Supplement to the Marine Safety
Performance Plan, FYs 2009–2014 to determine whether improvements could be made to
the Coast Guard’s MSPP to manage the Marine Safety Program.

We compared the MSPP with best practices for performance plans, and are making two
recommendations to improve the MSPP. Best practices are the Coast Guard’s Marine
Safety internal memorandums regarding Campaign Plans and Mission Performance
Plans, the Coast Guard’s Mission Performance Plan template (2001–2016), the
Government Performance Results Act of 1993, and Office of Management and Budget
Circulars A-123 and A-11. Mission performance plans that exhibit some or all of these
best practices should enable the Marine Safety Program to measure results, identify gaps
and issues, and improve performance.

The MSPP is organized around the following four goals aimed at enhancing ability of the
Coast Guard’s Marine Safety Program to—
    ¾ Reduce the risk of maritime casualties,
    ¾ Facilitate commerce,
    ¾ Improve program processes and management, and
    ¾ Improve human resource capabilities.

Each goal includes supporting objectives that define specific outcome, efficiency,
service, or capability results to be attained in support of the associated goal. The
performance goals and objectives are also linked to the MSPP’s six performance
initiatives: superior workforce, superb service delivery, quality management, boat, tow,
and fish safe. Each initiative has supporting courses of action. The update to the MSPP
is a progress report on the Coast Guard’s efforts to enhance the mission.

The Coast Guard’s Marine Safety Program ensures the safety of tens of thousands of U.S.
mariners, millions of passengers on ferries and other vessels, and tens of millions of
recreational boaters. By preventing marine casualties, the Coast Guard also protects the
marine environment from oil spills and the introduction of other harmful substances, and
strengthens the economy by minimizing property loss and disruptions to maritime
commerce.




                                            2
 

Results of Review
The MSPP has positive attributes, but it is missing some elements that we consider
critical to an effective performance plan. Those elements are baseline information
against which to measure performance indicators, performance targets and milestones to
show progress and completion dates for action items, resources needed, and measurable
goals and objectives.

The MSPP Should Include Additional Elements

Baselines

The MSPP does not include baseline information. Periodic comparisons of actual results
against baseline figures will help the Coast Guard to assess its progress more accurately
to enhance the MSPP for better management of the plan and provide clarity on where
corrective action should be taken. For example, the Coast Guard has identified that it
needs additional marine inspectors and investigators. It has made progress by adding
billets and filling many of those positions, but it does not compare the number of
additional positions against the number of positions needed. Adding positions indicates
progress but does not provide information about whether the Coast Guard is any closer to
achieving success.

Performance Targets, Performance Milestones, and Completion Dates

The MSPP does not include performance targets, milestones, and completion dates for all
courses of action under each performance initiative. Performance targets and milestones
to be reached by a set schedule will provide users and managers of the MSPP with clearer
expectations of accomplishments and a schedule for planning, prioritizing, and budgeting
activities. Because the MSPP was developed without performance targets, milestones,
and completion dates, there are no overdue courses of action. In addition, because many
of the objectives and courses of action in the MSPP are not measurable, the Coast Guard
cannot evaluate whether it met its goals and objectives, and whether it met them on
schedule.

Resources

The MSPP briefly describes performance initiatives and courses of action, but the plan
does not link courses of action to expected results, nor does it provide sufficient detail on
the resources needed to accomplish the mission. For example, a course of action for the
Boat Safe Initiative states, “[w]e will work with key stakeholders and partners to improve
safety communications and increase awareness of safe boating practices.” This course of
action does not explain how the Coast Guard plans to work with stakeholders and
partners or the resources needed to improve boating practices. Another example is under
the Tow Safe Initiative, which states that the Coast Guard will “[i]increase outreach and
strengthen partnership efforts; promote risk reduction.” Details are not included that
define resource requirements or address contingencies to reduce risk. Linking expected



                                              3
 

results with an explanation for needed resources will provide stakeholders with
information about how the Coast Guard plans to achieve the program mission given the
resources available.

Goals, Objectives, and Courses of Action Should Be Measurable

With the exception of one course of action, performance goals, objectives, and courses of
action in the MSPP are not expressed in measurable terms. Measurable goals will ensure
that an accurate and independent determination can be made about the actual performance
results. Such measurements will facilitate the validation of whether the performance goals
were achieved.

Recommendations
We recommend that the Assistant Commandant for Resources for the United States Coast
Guard take the following actions to improve the MSPP:

   1.	 Include baseline information, performance targets, performance milestones and
       completion dates, and resources needed in order to achieve the MSPP goals and
       objectives.

   2.	 Modify goals, objectives, and courses of action into quantifiable measures.

Management Comments and OIG Analysis
The Coast Guard concurred with both recommendations in the report. The Coast Guard
Deputy Commandant for Operations Office of Performance Management and
Assessment is developing guidance requiring mission performance initiative descriptions
in the MSPP include baseline information, performance metrics, performance milestones
and completion dates, and resources needed in order to achieve each mission’s goals.
The Coast Guard will modify the goals into quantifiable and measurable actions in its
2012 - 2017 MSPP.

Recommendation #1
We consider this recommendation open and unresolved until the Coast Guard provides us
with documentation of the inclusion of baseline information, performance targets,
performance milestones and completion dates, and resources needed in order to achieve the
Marine Safety Program’s goals and objectives in its 2012 – 2017 MSPP.

Recommendation #2
We consider this recommendation open and unresolved until the Coast Guard provides us
with documentation that goals, objectives, and courses of action included in its 2012 –
2017 MSPP are expressed using quantifiable measures.




                                            4
 

Appendix A
Purpose, Scope, and Methodology
We reviewed the Marine Safety Performance Plan (FYs 2009–2014) and Annual Update
Supplement to the Marine Safety Performance Plan (FYs 2009–2014) to determine
whether improvements could be made to the Coast Guard’s Marine Safety Performance
Plan (MSPP) to effectively manage the Marine Safety Program. In addition, we
interviewed key Coast Guard officials to understand the processes in place to develop the
MSPP and monitor and report on the plan progress. We used the Government
Performance and Results Act of 1993; Office of Management and Budget Circular No. A-
11, Part 6, Preparation and Submission of Strategic Plans, Annual Performance Plans,
and Annual Program Performance Reports; and Office of Management and Budget
Circular A-123, Management Accountability and Control to determine whether the
MSPP and its Annual Update Supplement contained key elements to support
management controls.

We conducted this performance audit between June and August 2010 pursuant to the
Inspector General Act of 1978. We did not conduct this audit in accordance with
generally accepted government auditing standards.

We appreciate the efforts by Coast Guard management and staff to provide the
information and access necessary to accomplish this review.




                                           5
 

Appendix B
Management’s Comments to the Letter Report




                                             Commandant                     2100 Second StI.et SW
      u.s. Departmen' " ' _
      Homeland security                      u.s. Coal' Guard               Washington. DC :zosgJ..O()()1
                                                                            Staff Symbol: (CG-a23)
                                                                            Phone: (202) 3n-J533
      United States                                                         Fax: (202)3n-D II
      Coast Guard                                                           Emal: ~.A.I(ulwil:JdQuseg.mil

                                                                            7500

                                                                             DEC 03 2010
      MEMORANDUM
      From     ~~ML
               COMDT (CG-B)
                                                                 Reply to
                                                                 Attn of:
                                                                            Audit Manager
                                                                            Mark Kulwicki
                                                                            (202) 372-3533
      To:      Anne L. Richards
               Assistant Inspector for Audits
               Department of Homeland Security (DHS)

      Subj:    COAST GUARD COMMENTS AND RESPONSE TO DRAFT LETTER REPORT:
               REVISIONS TO THE MARINE SAFETY PERFORMANCE PLAN AND ANNUAL
               UPDATE
      Ref:     (a) DHS Inspector General Draft Letter Report OIG-IO-095-AUD-USCG(a)

      1. Thank you for the opportunity to provide comment on the draft petfonnance audit report
      pertaining to the U. S. Coast Guard's Marine Safety Performance Plan 2009-2014 and the
      Update /0 the Marine Safety Performance Plan 2009-2014.
      2. The Coast Guard concurs, with comments, with the findings and recommendations contained
      in the report.

      3. The Marine Safety Performance Plan 2009-2014 was the initial mission performance plan
      (MPP) for Marine Safety. The Coast Guard is in the midst of compiling Mission Performance
      Plans for 2012:2017 for all eleven statutory missions, including Marine Safety.

      4. The letter report recognizes that while the Marine Safety Performance Plan has positive
      attributes, the report contains two recommendations intended to improve the plan which may
      enhance the program's overall effectiveness. The recommendations in the draft letter report are:

              Recommendation 1. lnclude baseline information, performance targets, perfonnance
              milestones and completion dates, and resources need in order to achieve the MSPP goals
              and objectives.

              Recommendation 2. Modify goaJs, objectives, and courses of action into quantifiable
              measures.

     S.  The Coast Guard concurs with the reconunendations. The Coast Guard Deputy Commandant
     for Operations Office of Performance Management and Assessment (CG-DCO-81) is developing
     guidance for Deputy Commandant for Operations elements to assist in the enhancement of
     performance metrics. The updated guidance requires mission performance initiative descriptions
     to include baseline information, performance targets, performance milestones and completion




.





                                                   6
 

Appendix B
Management’s Comments to the Letter Report


      Subj: COAST GUARD COMMENTS AND RESPONSE TO                        7500
      DRAfT LETTER REPORT: REVlSIONS TO THE MARINE
      SAFETY PERFORMANCE PLAN AND ANNUAL UPDATE


     dates, and resources needed in order to achieve each mission's goals. The 2012·20t7 Marine
     Safety Perfonnance Plan will modify goals presented in previous Mission Perfonnance Plans into
     quantifiable and measurable actions. An excerpt from the planned updated guidance is provided
     in Enclosure (1).

     6. If you have any questions, my point of contact is Mr. Mark Kulwicki at (202) 372-3533.
     Alternately, our Chief of External Coordination, CDR Todd OfTun, can be reached at
     (202) 372-3535.


                                                    #

     Enclosure:   (I) USCG DCO perfonnancc Initiative Template Excerpts (September 2010)

     Copy:        CG-54d- I
                  CG-OCQ-Sl




                                                  7
 

Appendix C
Major Contributor’s to this Report


                    Brooke Bebow, Director
                    Andrea Rambow, Audit Manager
                    Katrina Bynes, Auditor
                    Keith Nackerud, Program Analyst
                    Rebecca Mogg, Program Analyst
                    Emily Pedersen, Program Analyst
                    Victor Leung, Referencer




                                       8
 

Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                            9

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
